<html>
<title> - [H.A.S.C. No. 112-71]UPDATE ON ARLINGTON CEMETERY REFORMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 112-71]
 
                  UPDATE ON ARLINGTON CEMETERY REFORMS

                               __________

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                          meeting jointly with

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 23, 2011

                                     
[GRAPHIC] [TIFF OMITTED] CONGRESS.#13





                  U.S. GOVERNMENT PRINTING OFFICE
70-787                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
                 John Chapla, Professional Staff Member
                 Debra Wada, Professional Staff Member
                       Jim Weiss, Staff Assistant

                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                    ROB WITTMAN, Virginia, Chairman
K. MICHAEL CONAWAY, Texas            JIM COOPER, Tennessee
MO BROOKS, Alabama                   ROBERT ANDREWS, New Jersey
TODD YOUNG, Indiana                  LORETTA SANCHEZ, California
TOM ROONEY, Florida                  COLLEEN HANABUSA, Hawaii
MIKE COFFMAN, Colorado
               Michele Pearce, Professional Staff Member
                 Paul Lewis, Professional Staff Member
                     Arthur Milikh, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Friday, September 23, 2011, Update on Arlington Cemetery Reforms.     1

Appendix:

Friday, September 23, 2011.......................................    25
                              ----------                              

                       FRIDAY, SEPTEMBER 23, 2011
                  UPDATE ON ARLINGTON CEMETERY REFORMS
STATEMENTS PRESENTED BY MEMBERS OF CONGRESS<greek-l>Mr. Cooper, O&I RM, 
                     said he had no statement deg.

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1
Wittman, Hon. Rob, a Representative from Virginia, Chairman, 
  Subcommittee on Oversight and Investigations...................     2

                               WITNESSES

Condon, Kathryn A., Executive Director, Arlington National 
  Cemetery; accompanied by Patrick Hallinan, Superintendent of 
  Arlington National Cemetery....................................     8
McCoy, MG William H., USA, Deputy Inspector General, U.S. Army...     4

                                APPENDIX

Prepared Statements:

    Condon, Kathryn A............................................    56
    Davis, Hon. Susan A..........................................    31
    McCoy, MG William H..........................................    35
    Wilson, Hon. Joe.............................................    29
    Wittman, Hon. Rob............................................    33

Documents Submitted for the Record:

    American Legion Statement for the Record.....................    71

Witness Responses to Questions Asked During the Hearing:

    Mr. Runyan...................................................    77

Questions Submitted by Members Post Hearing:

    Mr. West.....................................................    81
                  UPDATE ON ARLINGTON CEMETERY REFORMS

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Military Personnel, 
            Meeting Jointly with the Subcommittee on 
            Oversight and Investigations, Washington, DC, 
            Friday, September 23, 2011.

    <greek-l>title on transcriptUPDATE ON ARLINGTON CEMETERY 
REFORMS deg.
    The subcommittees met, pursuant to call, at 10:00 a.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the Subcommittee on Military Personnel) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Good morning. Thank you for attending this 
morning. And I apologize. I am 4 minutes late. But I was with 
the Gold Star Mothers and, in particular, Ann Hampton, the very 
grateful mother of Captain Kimberly Hampton, who sadly was 
killed in a helicopter incident in Iraq.
    And so as we begin today, today, the Military Personnel 
Subcommittee and the Oversight and Investigation Subcommittee 
are jointly hosting a hearing on the recent report to Congress 
by the Secretary of the Army. That report details the progress 
that has been made since June 2010 to address the numerous 
serious shortcomings found in the previous oversight, 
administration, and management of the Arlington National 
Cemetery which is under the supervision of the Department of 
the Army.
    The Secretary's report is based on the findings of an 
inspection conducted by the Department of the Army Inspector 
General [IG]. Overall, there is clear evidence that substantial 
improvements have taken place at Arlington. That progress 
reflects not only in the personal commitment of Secretary John 
McHugh, but also the professionalism and commitment of Ms. 
Kathryn Condon, the Executive Director of the Army National 
Cemeteries Program, and Patrick Hallinan, the Superintendent of 
Arlington Cemetery.
    While great strides have been made, much still remains to 
be done. My focus in the hearing will be where we go from here. 
I am especially concerned about the Inspector General's 
findings that the wait time for burials is substantially longer 
than previously reported. We need to find an appropriate way 
soon to reduce that waiting time.
    Before I introduce our witnesses, let me recognize in turn 
Ranking Member Susan Davis of the Military Personnel 
Subcommittee; Rob Wittman, who is chairman of the Oversight and 
Investigations Subcommittee; and Jim Cooper, who is the ranking 
member of the Oversight and Investigations Subcommittee, for 
any opening remarks they may wish.
    Today we will hear--so I now recognize Mrs. Davis.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 29.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Ms. Condon and Mr. Hallinan, it is good to see you. I know 
you have been here before. Thank you. Welcome.
    General McCoy, thank you for being here, and we look 
forward to hearing your assessment of Arlington and how it 
compares to last year's review.
    Today our hearing is being held jointly with the Oversight 
and Investigations Subcommittee. So I certainly want to welcome 
our colleagues from the Oversight Subcommittee as well.
    The Arlington National Cemetery is a final resting place 
for those who made the ultimate sacrifice in service to their 
nation. It is a place where we expect and we should demand the 
highest standard of conduct and performance of its employees, 
from management to the lowest levels of the workforce.
    Sadly, the actions of a few individuals have tarnished the 
renowned reputation of this hallowed ground, so we are here to 
ensure that such actions never occur again and to begin to 
restore the trust that has been eroded by recent revelations.
    General McCoy, your report seems to suggest that the Army 
has made significant improvements at Arlington, and I have been 
impressed by the ongoing reports that we have had. But more can 
be done.
    Ms. Condon and Mr. Hallinan, it seems you have turned 
things around and that, again, has been impressive, and in a 
relatively short period of time. But the question that I have 
is, can this focus be maintained and what impact, if any, will 
potential budget concerns have on the operations of the 
Cemetery? I look forward to hearing from you on what has been 
accomplished for today and what the long-term strategic vision 
is for the Cemetery and ultimately how those plans may or may 
not be affected by the current budget environment.
    Thank you so much, Mr. Chairman.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 31.]
    Mr. Wilson. Thank you, Mrs. Davis.
    Chairman Rob Wittman.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
     CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Wittman. Thank you, Mr. Chairman.
    Good morning, Ms. Condon, Mr. Hallinan, General McCoy, 
thank you so much for taking the time to be here with us today.
    And I am especially pleased that you brought along Captain 
Nate Peterson, who played such a critical role in the 
accountability task force.
    Captain Peterson, thank you so much for your efforts.
    I want to thank not only Captain Peterson but other members 
of your team, such as Sergeant John McDermott, for your 
efforts. Because of you, we now have an accurate count of 
gravesites and markers at Arlington, which will ensure that 
future plans are based on real facts and data, not supposition.
    You should be proud of the service you provided to the task 
force and more importantly to your Nation. You have 
accomplished your duty with remarkable precision and diligence 
and have represented The Old Guard well. Great job.
    Arlington Cemetery is a special place for many reasons. But 
for me, it is special because it is where generations of heroes 
have been laid to rest. It is a place where we can go and pay 
appropriate tribute to heroes who dedicated their lives to 
others in answer to our Nation's call to duty despite the 
sacrifices associated with doing so.
    It is why I feel so passionately about accountability and 
oversight of Arlington and why I was happy to read about the 
recent progress that has been made on a number of issues. In 
particular, I was happy to learn that the IG didn't identify 
any deficiencies during the most recent inspection. And I am 
happy to know that the Army has dedicated the manpower and 
resources to hopefully sustain this progress moving forward.
    That said, I note a number of issues that continue to cause 
concern, such as employee training, acquisition and contracting 
procedures and oversight, and also long-term organizational 
plans and oversight regimes. I hope today that you will address 
these issues. And I look forward to hearing your views on how 
they will be addressed moving forward.
    Again, I thank all of you for being here today and thank 
you for your service to our Nation.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 33.]
    Mr. Wilson. Thank you, Mr. Wittman.
    We now proceed to Ranking Member Jim Cooper.
    Mr. Cooper. Thank you, Mr. Chairman. I would like to 
welcome the witnesses. I have no opening statement.
    Mr. Wilson. Thank you, Mr. Cooper.
    Today we will be hearing from Major General William McCoy, 
Deputy Inspector General of the U.S. Army, to be followed by 
Ms. Kathryn Condon, Executive Director of the Army's National 
Cemeteries Program. Ms. Condon is accompanied by Mr. Patrick 
Hallinan, who is the Superintendent of Arlington National 
Cemetery.
    Before I recognize our witnesses, I ask unanimous consent 
that a statement from the American Legion be entered into the 
record. Members will find the statement in the material before 
them. Hearing no objection, it shall be admitted.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Wilson. At this time, we will begin right away with 
General McCoy.

    STATEMENT OF MG WILLIAM H. MCCOY, USA, DEPUTY INSPECTOR 
                       GENERAL, U.S. ARMY

    General McCoy. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished Members, thank you for the 
invitation and opportunity to speak to you today about 
Arlington National Cemetery.
    I became the Deputy Inspector General in October of 2008 
and have also been serving as the Acting Inspector General 
since 13 August 2010, when Lieutenant General Whitcomb retired. 
During my time as Deputy and now the Acting Inspector General, 
I have been intimately involved in all efforts concerning 
Arlington National Cemetery almost continuously since July of 
2009.
    Since then, the Inspector General Agency has conducted two 
full inspections and an interim review this past January, and 
we have conducted 6 investigations involving 21 matters of 
alleged misconduct.
    On 10 June 2010, after reviewing both the IG inspection and 
the investigation report, Secretary McHugh issued Army 
Directive 2010-04, entitled ``Enhancing the Operation and 
Oversight of Army National Cemeteries.'' The directive 
established the Army National Cemeteries Program Executive 
Director position and tasked her to establish an accountability 
baseline for all gravesites and inurnment niches at the 
Cemetery. It further tasked agencies and organizations across 
the Army to accomplish numerous actions in support of the 
improvement of cemetery processes and procedures.
    The recent 2011 IG inspection had three objectives: First, 
to assess action on deficiencies identified in the 2010 report; 
second, to access implementation of Army directive 2010-04; and 
third, to assess the Cemetery's efforts to provide outreach 
information and support to family members who inquire about 
possible burial discrepancies at Arlington National Cemetery.
    I will describe the inspection team's findings during the 
remainder of this statement. Up front, I believe our report and 
what you will hear today will show that the changes that have 
taken place in the last year are a good news story. As much as 
the Army regretted having to report the many deficiencies found 
in Arlington a year ago, I am proud to report that the 
deficiencies have been substantially corrected this year.
    I attribute these improvements to three things: First, the 
direct supervision and direction of the Secretary of the Army, 
Mr. McHugh; second, the strong focused leadership of Ms. Condon 
and Mr. Hallinan; and finally, the application of the full 
force of Army resources to correcting deficiencies at Arlington 
National Cemetery [ANC].
    Bottom line, in my opinion, the immense management and 
deficiencies found and reported last year no longer exist.
    Some of the key findings I will discuss next. Since the 
Secretary assigned Army Directive 2010-04, the Executive 
Director has led her staff and other Army stakeholders to make 
significant improvements at Arlington while still accomplishing 
the Cemetery's daily mission. Our 2010 IG inspection identified 
76 findings and made 101 recommendations; 61 of those findings 
were deficiencies.
    This year, there were no deficiencies noted. We made 31 
observations and noted 2 other matters for consideration on the 
progress that has been made and the work that is still to be 
done. This alone underscores the tremendous progress ANC and 
the Army have made in correcting the problems at Arlington.
    Let me talk first to the culture. The insularity which 
contributed so significantly to the mismanagement and 
deficiencies last year no longer exist at Arlington National 
Cemetery. Instead, the Executive Director has established an 
environment of collaboration, cooperation and coordination with 
supporting Army staff, commands and agencies.
    Equally important is the transformation of the Cemetery's 
organizational climate. We administered two Defense Equal 
Opportunity Management Institute surveys to Cemetery employees 
this past year: one in January of 2011 and the second in June 
of 2011. Both surveys reflect steadily improving morale and 
organizational effectiveness over the last year. Sensing 
sessions conducted by inspectors confirm those survey findings.
    These radical improvements in the organizational climate 
and workforce attitude can be attributed directly to the strong 
leadership style and approach of both the Executive Director 
and the Superintendent.
    With regard to automated systems and processes, ANC now 
possesses a fully functional information technology 
architecture, enabled by current software applications and 
hardware and supported by a comprehensive service agreement 
with the Army's Information Technology Agency [ITA].
    For instance, this morning while we sit here with Ms. 
Condon and Mr. Hallinan, they are conducting 12 funerals at 
Arlington National Cemetery. We could not have told you that 
reliably last year. This year you can get it off their Web 
site. It is pretty incredible.
    ANC has partnered with ITA to route all incoming calls to 
ITA's consolidated customer service center at Fort Detrick, 
Maryland. This has significantly improved customer service and 
enabled a tiered response system using their remedy tracking 
system. This system allows collaborative resolution by call 
center personnel and Cemetery representatives and enables 
Cemetery leaders to assess performance against established 
measures of effectiveness.
    ANC and the Veterans Administration are now partnering to 
integrate the Cemetery's interment scheduling system and the 
VA's Burial Operation Support System. This enhancement will 
save significant staff hours within the Interment Services 
Branch. ANC has partnered also with the Army's Chief 
Information Officer to create a digital research tool for 
digitized burial records, cemetery maps and headstone 
photographs, which is enabling the Executive Director's 
Gravesite Accountability Task Force to reestablish an 
accountability baseline for each gravesite and inurnment niche 
at Arlington.
    With regard to information assurance, ANC now meets Army 
standards in all functional areas. During the 2010 IG 
inspection, ANC did not meet the Army standard in any of the 
functional areas inspected; 57 deficiencies were identified in 
their Information Assurance Program. Today, I can report to you 
that Arlington National Cemetery's Information Assurance 
Program is among the best in the Army.
    With regard to contracting, during the 2010 IG inspection, 
we found the Cemetery's procurement and contracting actions 
were not compliant with Army, Defense or Federal acquisition 
regulations. Untrained and unqualified personnel were 
developing requirements and committing funds to contracts 
without appropriate oversight. We also identified poor or 
improper contract management by the agencies charged with 
executing ANC's contracts.
    This summer, we reviewed 17 ANC service contracts from the 
Mission Installation Contracting Command and 8 ANC engineering 
and construction contracts from the Army Corps of Engineers. 
Today, the Cemetery's contracting actions are now properly 
aligned based on scope of work, and both contracting agencies 
are providing support teams to ANC and are properly providing 
the oversight necessary to ensure that quality contracts are 
properly awarded.
    ANC is also effectively monitoring contract execution with 
trained and qualified contracting officer representatives. 
While there were some discrepancies found in contract 
documentation this past year, they were all minor compared to 
what we found last year. And systems, processes and management 
of contracts at Arlington, which were nonexistent last year, 
are now consistent with best practices in the Army.
    With regard to Arlington's budget, ANC now uses Army 
standard financial management processes and works closely with 
the Army's Administrative Assistant and Assistant Secretary of 
the Army for Financial Management to ensure the development, 
execution and oversight of its program and budget. Further, the 
Executive Director's decision to transition Arlington early to 
the General Fund Enterprise Business System provides the Army 
full visibility of the Cemetery's expenditures and has been 
critical to reversing past budget shortfalls.
    Turning to Arlington's outreach to families, during this 
summer's inspection, we found that ANC's leadership and staff 
were professional and compassionate in providing information, 
support and outreach to families of interned or inurned 
veterans when responding to possible burial discrepancies in 
Arlington. Immediately after assuming her position, Ms. Condon 
established a hotline at Arlington to respond to burial 
inquiries. She also developed a tiered system to ensure that 
proper efforts were made to address family member concerns.
    To date, ANC has received almost 1,300 inquiries from 
family members. In all but 13 cases, Cemetery representatives 
were able to assure family members that there were no 
discrepancies regarding the burial of their loved ones. In the 
13 cases of substantiated burial discrepancies, which included 
the 8 urns that were discovered in October of 2010, Cemetery 
representatives worked closely with each family concerned and 
invited their participation in correcting the error 
accordingly.
    In the case of the eight urns found in a single grave, only 
four were able to be positively identified. ANC reinterred the 
unidentified urns as unknown remains with the full dignity and 
respect they provide. And to ensure that these inexcusable 
breaches of procedure are prevented in the future, the 
Executive Director and Superintendent have thoroughly revised 
and imposed strict safeguards into the Cemetery's procedures 
for interring or inurning veterans--or disinterring veterans.
    Our key recommendations: While the Army and ANC staff have 
made great strides in correcting deficiencies noted in the 2010 
IG report, there is still more to do. In this year's IG report, 
we presented Secretary McHugh with 53 recommendations designed 
to enhance the progress already made to this point. A 
description of some of our key recommendations follow.
    In the last year, the Executive Director has revised 32 
Code of Federal Regulations 533, and it is now being staffed 
for public comment. We recognized that the CFR would need to be 
published before the Army regulation could be appropriately 
revised. The Executive Director is now working on that. We have 
recommended that the Executive Director incorporate 
requirements for long-term, robust, and continuous oversight 
processes and mechanisms in the revision of the regulation.
    We also recommended that the Executive Director revise 
Department of the Army Pamphlet 290-5, ``Administration, 
Operation and Maintenance of Army Cemeteries,'' to provide all 
28 Army post cemeteries with sound, authoritative and current 
guidance on standardized processes and procedures for cemetery 
operations.
    We also recommended a multiservice policy for Arlington in 
order to standardize policies, processes and procedures for 
interment and inurnment honors and for the management of 
ceremonial and band units. We believe this will be both more 
efficient and more responsive.
    Both the Secretary and the Chief of Staff of the Army are 
committed to ensuring we have sustained the progress that we 
made at Arlington. We note that the Executive Director and her 
staff have fundamentally transformed the control mechanisms and 
oversight of cemetery processes. However, to ensure this 
continues into the long term, we recommended that the 
Department of the Army G-3 provide Secretary McHugh with future 
options on how best to integrate the Army National Cemeteries 
Program [ANCP], command and control, organizational alignment 
and support systems into an established Army organizational 
structure. The G-3 is already conducting the analysis on that.
    During our inspection, we found that interments and 
inurnments at Arlington are increasing each year, and that wait 
times at Arlington continues to increase. This may result in 
the Cemetery reaching its capacity before current projections. 
We recommended that the Secretary of the Army request Army 
National Cemetery's Advisory Commission, when convened, to 
examine the causes and effects of increasing wait times and 
increasing demand and make recommendations to contend with 
these issues.
    In conclusion, I believe the progress made at Arlington 
since last June shows a significant turnaround in performance 
at Arlington and demonstrates the Army's stalwart commitment to 
ensuring all actions at this national shrine are executed to 
exacting standards.
    Ms. Condon and Mr. Hallinan have been systematically 
correcting the deficiencies we found last year. Army agencies 
and organizations have completed or are in the process of 
completing the tasks specifically assigned to them by the 
Secretary of the Army. And Arlington's efforts to provide 
outreach information and support to family members are 
professional and compassionate. Simply put, the mismanagement 
that we found last year no longer exists.
    Much has been done, but there is still more to do. The team 
that is there is fully capable and focused on making continuous 
improvements at our Army's sacred ground.
    As the Army's Inspector General, I know that restoring 
Arlington remains a priority for the Secretary and for the Army 
and for me. We will conduct annual inspections there for the 
next 2 years in accordance with Public Law 111-339, but we are 
also looking for other external oversight measures and internal 
oversight measures that can be implemented.
    Further, as the son of a mother and father who are buried 
at Arlington, I have a personal interest in ensuring that the 
Cemetery is properly managed. I am confident that Arlington is 
being run as well as possible and I have observed constant, 
continuous improvement over the past 15 months.
    Thank you once again for the invitation and the opportunity 
to testify today on this most important subject. I present my 
written testimony to you for the record and look forward to 
answering your questions.
    [The prepared statement of General McCoy can be found in 
the Appendix on page 35.]
    Mr. Wilson. General, thank you so much.
    And we appreciate your personal commitment.
    As we proceed, I also want to recognize Representative Jon 
Runyan, a member of the Armed Services Committee.
    And also we appreciate his service as chairman of the 
Subcommittee on Disability Assistance and Memorial Affairs of 
the House Veterans' Affairs Committee. His subcommittee also 
has oversight of Arlington National Cemetery.
    And now we proceed with Ms. Condon.

 STATEMENT OF KATHRYN A. CONDON, EXECUTIVE DIRECTOR, ARLINGTON 
      NATIONAL CEMETERY; ACCOMPANIED BY PATRICK HALLINAN, 
         SUPERINTENDENT OF ARLINGTON NATIONAL CEMETERY

    Ms. Condon. Mr. Chairman and distinguished members of the 
committees, thank you for the opportunity to testify today 
regarding the progress that we have made at Arlington National 
Cemetery.
    Fifteen months ago, Secretary McHugh created the position 
of Executive Director, the position that I hold, as a direct 
report to him, to be solely responsible for all aspects of 
Arlington's operations, identified deficiencies, inefficiencies 
and areas of noncompliance as a result of the June 2010 
Inspector General report.
    I am pleased to report to the subcommittees today that 
tremendous progress has been made and care taken to analyze the 
76 deficiencies identified in that report. Since that time, the 
Cemetery has established standards and crafted corrective 
actions which addressed those deficiencies. As noted as early 
as March of this year when the Inspector General did an interim 
review, it was stated that we have significantly increased the 
effectiveness and efficiency in all of our missions and 
functions.
    But first and foremost, the most important action taken was 
hiring Pat Hallinan as the Superintendent. His years of 
cemetery experience have allowed both of us to use his words to 
reorganize, retrain and retool Arlington.
    Over the past year, we have increased the end strength of 
the organization by nearly 50 percent. We have resolved the 211 
discrepancies that were identified in the 2010 IG report. We 
have conducted 16 physical gravesite verifications as a result 
of family queries. We have formed the Gravesite Accountability 
Task Force, which is currently in the process of establishing 
the accountability baseline of all gravesites and niches in the 
Cemetery.
    We are in the process of updating the CFR, the Code of 
Federal Regulations. We have implemented the Army's General 
Fund Enterprise Business System, allowing Arlington for the 
first time to conduct a Web-enabled financial asset and account 
management. We have validated all of Arlington's contracts, and 
as a matter of fact, we recompeted all of our service contracts 
this year. We brought Arlington into compliance with 
information assurance, and we have directed the development of 
a revised master plan.
    And more importantly, we have improved our communication 
with the public and the ability of families and funeral homes 
to schedule interments and inurnments by creating an integrated 
call center.
    Mr. Chairman, most importantly, I want to highlight the 
tremendous leap in the effective use of technology at 
Arlington. From the soldiers of The Old Guard taking photos and 
documenting each marker in the Cemetery--thank you, Captain 
Peterson--to replacing the paper records of the past that most 
of you have seen firsthand and to replacing those with a 
digital system that uses industry best practices for database 
management. We are no longer using an IBM Selectric typewriter.
    To schedule interments, our team is leveraging a state-of-
the-art system that ensures visibility for all appropriate 
stakeholders and the ability to share information like never 
before. And we have initiated a Geospatial Application 
Development initiative at Arlington. This will form a Google 
Maps-like information system that enables the Cemetery to 
better manage the grounds, for Mr. Hallinan to assign grave and 
niche assessments, and to provide street directions and site 
locations for our guests.
    Although much has been accomplished, there is still a lot 
of work that we need to do. We are on the right path and to 
work to earn and maintain the faith of the American public. To 
date, this calendar year, we have conducted 4,869 burials; 
3,146 ceremonies; hosted over 4 million visitors and guests; 
and as the Inspector General stated, reviewed and addressed 
over 1,300 family member concerns.
    We have executed these efforts while also maintaining our 
current operational tempo. But in order to meet the ever-
increasing demand for dignified services, we have expanded 
operations to include placement-only services on Saturday that 
do not require honors. And we continue to conduct on an average 
of 27 funeral services each day.
    If you were to ask today what is necessary to continue this 
positive and fast-paced trend, it is the continued stalwart 
support of all of the committees that are represented in the 
room today.
    Thank you for allowing me to just highlight a few of the 
examples of our progress to date.
    And Mr. Hallinan and I look forward to answering any of 
your questions.
    [The prepared statement of Ms. Condon can be found in the 
Appendix on page 56.]
    Mr. Wilson. Thank you very much. And it really is 
encouraging to get this update.
    We will now be proceeding. Every person here, as a member 
of the subcommittees that are affected, will have 5 minutes 
each. We have a person above reproach, John Chapla, the 
professional staff, who will keep the time. And he is very 
proficient.
    As we proceed, the first question--and actually, things are 
coming together here in that the question I had you have 
largely answered, Ms. Condon.
    But first of all, I want to thank Captain Nate Peterson, of 
The Old Guard. It was really heartwarming to find out that they 
were out there taking headstone photographs. Gosh, that is so 
real. And then putting it on the Web site so that family 
members, historians, young people doing biographies of our 
heroes, they can look it up. And I, 2 weeks ago today, was at 
Arlington. Incredibly enough, Colonel Charles P. Murray, Jr., a 
medal of honor winner, who was the former Deputy Commander of 
The Old Guard from Columbia, South Carolina. And it just warmed 
your heart to see the tribute to our military heroes.
    I am glad you brought up, Ms. Condon, the--where this began 
largely were paper records that were incredibly disorganized 
and then, sadly, there was an effort of digitalization that did 
not work. So can you restate again how this has been improved? 
Is there any cost recovery to prior error? And then, with the 
computerization and the Web site capabilities, let us know how 
this works.
    Ms. Condon. Certainly, Mr. Chairman.
    First of all, as you know, we have established the 
independent accountability task force. And what we were able to 
do is we were able to from the previous efforts to--of scanned 
records--to use those. But in our discovery, as we built our IT 
[information technology] tools, we discovered that not all 
those records were scanned. So we are completely rescanning, 
and we have rescanned all of the paper records of the Cemetery.
    As a result of The Old Guard, we now can tell you that we 
have 259,978 gravesite locations in the Cemetery. But those are 
just the actual locations. That does not tell you the number of 
decedents that we have buried in the Cemetery. So what we are 
doing in the task force right now is to match those headstones 
and markers with each and every record that we have in the 
Cemetery. And we are well on our way, sir, on that effort.
    Mr. Wilson. And I am glad it was brought up and I like the 
term general customer service. That means customer friendly. 
And I was happy to hear there has been a change in the 
telephone system to include voicemail. But I am still concerned 
that there is a waiting list for interments because we know 
there are family members who are in jeopardy between the time 
of death and interment. What is being done? And you have 
identified some. But how can we help, on helping reduce the 
waiting list?
    Ms. Condon. Sir, as you know, we are almost the victims of 
our own success. Before, they only averaged answering 47 phone 
calls a day. Right now, we are averaging 230 phone calls. We 
are answering every phone call that comes into the Cemetery. 
And of those phone calls that are coming in, the average right 
now is around 40 of phone calls are for individual scheduling 
and interment service in the Cemetery.
    Mr. Hallinan and I are doing our best, and I will turn over 
to him to give the operational perspective on how we are 
addressing that increase in volume. One of the things that we 
did was, as I noted in my opening statement, was we now have 
Saturday services. And that is for family members and military 
members that do not want the honors, so that we can do 
placements on Saturday rather than that.
    Pat, is there anything that I missed?
    Mr. Hallinan. I would just add that the true intent of the 
Saturday burials was a customer service initiative. There is no 
other national cemetery in the United States at this time that 
inters on a Saturday. We are working 6 days a week. That is a 
credit to the crew, and that is a credit to the planning and 
the efforts we are leading.
    As Ms. Condon stated, we are victims of our own success. We 
do not know how many people in the past called up, didn't get 
through, got frustrated and decided to bury elsewhere. The 
requests for burials at Arlington is up. I think that is a good 
reflection on the trust and confidence of the American people. 
There are a lot of logistics and complexities involved, as you 
know, interring at Arlington. But we are working together as a 
team, Ms. Condon and I and our staff, along with the Military 
District of Washington, to see what we can do on a daily basis, 
Monday through Friday, to try to decrease that backlog.
    Mr. Wilson. Thank you very much.
    We now proceed immediately to Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And I appreciate--really it is good to hear from all of 
you. I appreciate the fact that you said continuous progress is 
really dependent on our support, and I think we all heard that 
clearly.
    But I wonder if you could speak to budgetary constraints as 
you move forward and what you have the most concern about as, 
you know, we look for at the, unfortunately, the dollars and 
cents of those improvements. Where have you found real 
efficiencies and where, on the other hand, as you speak about 
Saturday burials, which is such a positive thing for our 
families of loved ones who are requesting Saturday burials, 
there is obviously a cost to that? So I think just giving us a 
better sense of where are we and what is it going to take, I 
guess, to keep that continuous improvement? How do you see the 
impacts of budgetary concerns?
    Ms. Condon. Congresswoman, the issue that we have is right 
now, we have been doing all we can as was identified in the 
Inspector General report to bring in all of the unliquidated 
obligations from previous years so that--and we have been able 
to use those dollars to pay for the increase in manpower, most 
importantly to improve the equipment that Mr. Hallinan has 
introduced to the Cemetery for our workforce to make us more 
efficient and effective. They were using outdated equipment. 
One of my best examples, and I don't have the experience that 
Mr. Hallinan has when it comes to burials, but I will scare you 
now what I know about running a cemetery was we used to--when 
you refill a gravesite after you do an interment, they used to 
use a backhoe to tamp down the gravesite. And now by just 
introducing equipment like a gas held tamper, we no longer have 
the sinkages that Mr. Hallinan and I experienced when we took 
over last June.
    But that is an efficiency because what that also means is 
that we are now not paying the contractor to come in and 
refinish, redo the gravesite, resod, et cetera. So by 
introducing state-of-the-art modern equipment to the workforce 
and training the workforce, it has been an efficiency.
    My concern is we have been capturing prior year money and, 
you know, that has enabled us to do all of the things that we 
have been able to accomplish in the last year. I am looking 
seriously, you know, at the next budget submits if we do have 
enough to maintain and sustain the operation.
    Mrs. Davis. And is there an area in particular that you 
would target, for example, and again just to give us a little 
further direction?
    Ms. Condon. One of the areas that we are most concerned 
about is there has been a tremendous lack of paying attention 
to maintenance and repair of the Cemetery. This summer, we had 
two catastrophic failures of our air conditioning units in our 
visitors center, which is where our 4 million guests go to use 
the restroom facilities, and also in our administration 
building. The administration building is where our family 
members come to, you know, at the start of their service, and 
literally, we had a catastrophic failure when we were at 100 
degree temperature. Our roads are in very poor condition and 
our sidewalks. We were very fortunate that we didn't have 
tremendous damage with the hurricanes and earthquake, but we 
did have damage. So backlog of maintenance and repair, ma'am, 
is one area where we truly have to focus our resources in the 
future.
    Mrs. Davis. Thank you.
    Could you comment on transferring jurisdiction to the VA? 
There has been discussion about that as you know. And I just 
wonder what your thoughts are about it.
    Ms. Condon. Congresswoman Davis, I was put in Arlington to 
fix the Cemetery. The decision on, you know, should it go to VA 
I think is well above me. But I think people who are probably 
better to answer that question--I am a little parochial--is 
probably either Mr. Hallinan who came from Veterans Affairs or, 
you know, the Inspector General.
    Mr. Hallinan. I would be happy to offer my opinion. And it 
is just that; it is one person's opinion. But I have over three 
decades of experience running 131 National Cemeteries. That 
expertise is now at Arlington, and it has contributed I think 
to some of the positive outcomes that we are testifying to 
today.
    The final decision would be left up to the distinguished 
Members. That is above my purview. On a personal note, I do 
believe that the Army has demonstrated the resources and the 
commitment. The question is, is this really a core mission of 
the United States Army? And as I have told Ms. Condon, it has 
been a core mission of the United States Army for 150 years. So 
they interred those first Union soldiers after that first 
Battle of Manassas. And the United States Army has forensic 
experts. It has the labs in Hawaii. It has the labs in Dover. 
The United States Army has the greatest registration expertise.
    It is unfortunate what happened. We have done everything we 
can and we will continue to do to correct the mistakes of the 
past and be sure they do not happen again. But I believe the 
resources and, more importantly, the passion and the commitment 
to the mission is there with the Army.
    Mrs. Davis. Thank you.
    General McCoy--Mr. Chairman--did you want to just briefly?
    General McCoy. I would like to answer that. First, as a 
soldier, I will tell you that from the standpoint of core 
competencies, Mr. Hallinan indicated that, you know, we have 
been doing this for 150 years. We took our eye off the ball I 
think for a while, and we made a mess there that we have now 
cleaned up. The Army is capable of running this. The Army has 
the resources. And if you introduced another Federal agency, it 
would create an additional level of bureaucracy I believe. They 
already coordinate and partner very closely with the Veterans 
Administration.
    As a soldier, you know, you ask us to do things that aren't 
really our core competency a lot. We do firefighting. We do 
nation building and nation assistance. We do things all the 
time. And I think the Army is probably the only organization in 
our government that is postured to go anywhere, anytime, and do 
anything and get the job done. So that is my opinion.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you for that very important question.
    We now proceed to Chairman Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    General McCoy, I want to follow up on the issue of the 
Veterans Administration, and you noted in your report that the 
Army has had a number of elements that they brought to bear to 
look at Arlington to make sure that there was progress toward 
institutional reform, including some direct oversight by the 
Secretary of the Army. And I think that is admirable.
    Based on that, putting in a larger perspective, what do you 
believe is the best organizational structure for Arlington? And 
how robust a role could the Veterans Administration play in the 
future? And along those lines, can you explain why the Army 
hasn't asked the VA to come in and do an independent 
evaluation, to just have an agency outside or an external group 
to look in to give an independent evaluation and say, hey, this 
is how we see things going, here are some of our 
recommendations? It is great to have the internal 
investigation, but it is also good I think with another agency 
that has expertise in that to say, listen, why don't you do 
that? It has been recommended that that be done, and it hasn't 
been done. So I just want to get your comments on the structure 
and then where you see Veterans Administration playing a role 
in helping the future of Arlington.
    General McCoy. Okay. Thank you, Congressman. I will tell 
you that we did recommend last year, first, a different 
structural solution, and the Secretary made a determination, 
based on his own judgment and advice, that he would establish 
this structure with the ANCP, the provisional oversight group 
and the Executive Director. And that system is working. We have 
asked the G-3 to come back and look for a long-term solution. 
In the short term, this is a good fix, and my sense is based on 
what we have seen is that it has worked very well.
    We did recommend last year that they sign an MOU, a 
memorandum of understanding, with the Veterans Administration 
to partner with them on their Veterans Assessment and 
Inspection Program. Ms. Condon did one better and she hired the 
expert out of Veterans Administration who wrote that program to 
be the Superintendent. So now he is here doing that.
    In addition to that, she has had a lot of help from 
organizations: GAO [Government Accountability Office]; we have 
been there continuously since she arrived; AAA [Army Audit 
Agency] has been there; Secretary of the Army for Logistics and 
Technology has been there; the Chief Information Officer. And 
she has in that time also established her own internal 
assessment programs, although she still has some work to do 
there. She has established and reviewed analysis capabilities 
throughout the Cemetery. My sense is there is still an 
opportunity to partner with the Veterans Administration as they 
do in information technology now and also in other matters. And 
they have done that with training this last year, but there is 
still more that they could do. I think Mr. Hallinan has a 
couple of comments.
    Mr. Hallinan. Mr. Chairman, just for a point of fact: we do 
have the written agreement between the Department of Veterans 
Affairs and the Secretary of the Army.
    And Ms. Condon and I have spoken with the current Under 
Secretary, my former boss, Mr. Steve Muro. And we plan on 
sending four to five Arlington employees to their 
organizational and assessment training program in St. Louis, 
which is the academy that I helped found and started and did a 
lot of the training of the senior leaders. And that is the 
beginning.
    In order to do a proper assessment, based on cemetery 
operations--because they are kind of unique--you need properly 
trained people to do an assessment or they can cause more 
problems than issues they may fix. So that agreement is in 
place. I expect the first four or five individuals to be 
trained this year. We look to train additional personnel. We 
look to use that program along with an Army inspection program 
to assess ourselves. And then we look to invite the VA in maybe 
the following year to come also to take a look at us. So we 
have our peers in a similar industry also with their objective 
set of eyes helping us.
    Mr. Wittman. Very good.
    Ms. Condon, I want to follow up on the issue of training. 
You know, in the IG report, it was pointed out as a deficiency, 
the lack of a comprehensive training program, ensuring that all 
the employees there have the knowledge and skills necessary to 
perform their tasks in their specific areas. It seems to me 
along those lines that defining those core tasks and 
establishing conditions for training are critical. Can you tell 
me where you are in making progress towards putting those core 
tasks in place, having them clearly identified for each 
employee and then how they will be trained and then how those 
employees will be put in place, how they will be deployed based 
upon that training regime, because as you know, it has 
sometimes been the cart before the horse. It is employee starts 
working, and then later on, you find out, well, they don't have 
the core competencies or their core tasks aren't identified. If 
you could maybe define where things are going with that 
particular deficiency pointed out in the IG's report.
    Ms. Condon. Sir, as you know, the IG pointed out that what 
we are doing is we are having each employee have an individual 
development plan. But personally, the first thing that Mr. 
Hallinan and I had to do at the Cemetery was to implement the 
standards and procedures to effectively not only run the 
Cemetery operations but to do the administration tasks such as 
contracting and resource management. So what we are doing is we 
are making sure that the employees all have a training program 
and we are doing that, you know, as we speak. So we are 
addressing that issue because it is a concern of both Mr. 
Hallinan and I that our employees are trained to do the job 
rather than what happened in the past, where it was just on-
the-job training. And so that is one of the issues that we are 
working. And I don't know, Pat, if there is anything you wanted 
to add to that one.
    Mr. Hallinan. Mr. Chairman, you speak about when an 
employee comes on the job for the first time, that they don't 
have the skill set that is required, that would be a flaw and a 
mistake in the hiring process. One of the things that Ms. 
Condon and I have done since we have arrived is train the 
supervisors at Arlington in performance-based interviewing 
techniques. We have had over a 20 percent turnover in staff in 
the last 15 months. That has allowed us to bring in new people 
with new skill sets based on performance-based interviews. And 
I have to say that they have done a better job of selecting 
candidates; I am feeling pretty confident with the quality of 
people we are bringing on board. We are training on site 
internally. We are also sending people out professionally to be 
trained, whether it is at St. Louis with the VA under the 
memorandum of agreement or even to Caterpillar training in 
Peoria, Illinois, where my equipment operators and Ms. Condon's 
equipment operators are being trained at the highest industry 
standard. That will save the taxpayer money and wear and tear 
on equipment. That will save us in the prevention of accidents 
to employees or the visiting public. And we should gain 
operational efficiencies from the backhoe operators and 
equipment operators in the future.
    So when it comes to training, this is going to be the year 
of intense training, as I spoke to the Inspector General about.
    You need to have standards and measures. Each employee will 
be issued a copy of the standards and measures and trained in 
all standards and measures which are the very best in the 
country. So they will know word for word and line for line what 
is in those standards and measures. Then you need standard 
operating procedures to support the standards and measures. 
Then you need an assessment program to ensure that everyone is 
doing just that. So it is a three-legged stool, and we are well 
on our way, sir.
    Ms. Condon. Sir, if I may add. One of the things that we 
are also doing is we are doing succession planning. We are 
bringing individuals in at a lower level and actually grooming 
them to positions within the Cemetery, both from the 
operational side and the administration side.
    Mr. Wittman. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wilson. Thank you very much.
    And thank you, Mr. Chairman.
    We now proceed to Ranking Member Jim Cooper of Tennessee.
    Mr. Cooper. Thank you, Mr. Chairman.
    I think it is very important to get a long-term solution to 
this problem. I was very impressed by the statement of the 
American Legion and to highlight the importance of that 
statement, I would like to read from it. ``The American Legion 
urges Congress to place the ultimate ongoing responsibility of 
managing and operating Arlington National Cemetery directly 
with the Department of Veterans Affairs through the National 
Cemetery Administration, with ceremonial duties still preserved 
by The Old Guard. In the entire government, no other agency can 
match the track record of success and satisfaction of NCA, that 
has worked hard to achieve. NCA is well known for their 
attention to detail and their ability to perform the task of 
ensuring the dignity of our fallen service members like no 
other.''
    They point out how Arlington is struggling to track graves, 
and NCA has already had a downloadable app for Smartphones for 
some time, so why reinvent the wheel. The American Legion goes 
on to point out that the ``DOD has one critical mission, to 
prepare for and execute the warfighting necessary for this 
Nation's defense. Sidelining resources of money and staff to 
nonwarfighting tasks degrades the efficiency of the DOD. NCA is 
already managing 131 cemeteries and doing it very well.''
    They go on to point out that in a consumer satisfaction 
index, NCA scores a 96, which is higher than any other 
government agency and higher than any other organization in the 
United States. So the American Legion believes this is 
indicative of the level of commitment in getting the job done 
right for the families.
    So to me, Mr. Chairman, this is pretty persuasive case, and 
I think the committee should be looking at something like this.
    As the American Legion says, the efforts of Director Condon 
and Superintendent Hallinan are laudable, but they do not 
represent a long-term solution, nor should that be asked of 
them. So I appreciate the accomplishments that you have 
achieved. But we all need to remember this is a scandal that 
never should have happened. And the Army is always going to be 
distracted by more important missions, and I appreciate 
Inspector General McCoy and others volunteering for duty and 
getting this done. But if the Veterans Administration is doing 
such a great job and Ms. Condon herself had to hire Mr. 
Hallinan from the Veterans Administration, I think that a long-
term solution is very much headed in that direction.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you very much.
    And we now proceed to Mr. Scott of Georgia.
    Mr. Scott. Ladies and gentlemen, I thank both of you.
    And I will tell you I do hope that it stays under the 
control of where it is, as much respect as I have for my 
colleague. I remember quite well as a teenager visiting the 
beaches of Normandy and the impact that it had on me. And for a 
long, long time, I had a picture of a tombstone and my 
recollection was it said this soldier known only to God, but 
looking--it may have said a comrade in arms known only to God, 
as I look at the things. And the impact that one of those 
funerals has and visiting one of those treasures on our 
teenagers, especially, that are growing up, I think is 
extremely important.
    And my granddad was a B-17 pilot. I cannot help bring that 
up with the honor flight that is here today. I saw them going 
in the Capitol, and certainly we are losing that generation at 
a rapid pace.
    I want to first say, thank you. I want to thank you for 
going out and taking your time to take the pictures because it 
is important to me as an American, and it is more important to 
those families whose loved ones are being now properly taken 
care of.
    General, the question I have is Andersonville is very close 
to home for me in Georgia. I have family members that are 
buried there. Are we looking at the other areas to make sure 
that we don't have similar issues that we have had here?
    General McCoy. You are talking about other cemeteries, 
correct?
    Mr. Scott. Yes, sir. Correct.
    General McCoy. There are two moves afoot. First, as the 
Secretary walked away from this hearing last year, he 
recognized that there may be other autonomous organizations in 
the Army. So he created a task force to look at, where might he 
have other autonomous organizations? And that task force 
concluded that we have several organizations in the Army that 
had the same kind of governance structure that Arlington 
National Cemetery had. So now we are moving to look in detail 
at those.
    But more to the point of the cemeteries, in addition to the 
Soldiers' and Airmen's Home, which is part of the Arlington 
National Cemetery Program--or the Army National Cemetery 
Program, there are 28 cemeteries throughout the Army that are 
on for the most part post camps and stations in the continental 
United States. Ms. Condon as the Executive Director of ANCP, 
Army National Cemeteries Program, also has proponency for 
those, and she is establishing as part of her Department of the 
Army Pamphlet 290-5, she is establishing procedures and 
processes for proper gravesite burial and management there.
    So my sense is that while those cemeteries are much less 
engaged than hers is, than Arlington National Cemetery, she 
understands what she has to do to make those changes at those 
cemeteries as well.
    Mr. Scott. Okay. One last question or comment.
    When my grandfather died, we chose to bury him in a family 
plot. He was a POW [prisoner of war] in World War II, and we 
simply asked for an Honor Guard to carry out the service, the 
flag and the rifles and the playing of taps. And obviously, it 
was carried out from a base in Georgia, and the gentleman in 
charge was a very, very respectful, but commented that, you 
know, we simply don't have the manpower to carry out all of the 
requests that we are getting. I would just ask, obviously this 
is the priority of this committee hearing right now, that maybe 
we consider how we are going to handle the respect for those 
who are not being buried in Arlington and maybe even if we 
worked with ROTC [Reserve Officer Training Corps] programs 
throughout the State--I represent a very rural area of the 
country in many of the counties that I represent and whether or 
not we could work with an ROTC program to make sure that those 
families have the service that they request. Thank you. Thank 
you for everything you have done.
    Mr. Wilson. Thank you, Mr. Scott.
    And we now will proceed to Ms. Tsongas of Massachusetts.
    Ms. Tsongas. Thank you all for being here. And it is a 
pleasure to hear this report compared to that which we heard 
over a year ago. So I want to commend you all for the great 
progress you have made. And the progress has been significant, 
but I think if you look at what we heard initially, there was 
no other way than up. So you are on a good path.
    And I would also like to say that in my office, I have a 
wounded warrior; his name is Paul Corbett. And I let him know 
that I would be attending this hearing today. And he asked that 
I recognize the tremendous work that he has seen performed by 
our service members who work at Arlington National Cemetery. He 
has attended too many ceremonies there as a result of his 
service but said he has always been incredibly touched and 
moved by the seriousness and professionalism of The Old Guard 
and their incredible commitment to burying our soldiers with 
dignity, the dignity they deserve. So I just wanted to convey 
that to you.
    I also, in reading your testimony, was sort of alerted to 
your Web site and I went on it just out of curiosity. I had a 
free moment. And I found it to be very well done. So I commend 
you for that as well. And as I was looking through it, you 
know, I saw one of the little tabs where it talks about 
eligibility and who was eligible to be buried there. And I 
wondered if one of the issues you are contending with in the 
delay, part of it is a result of the improvements you have 
made, that people are now able to get through and otherwise 
might have given up. But what the process is for determining 
eligibility. You have criteria. But once somebody makes it 
known that they would like to bury a loved one there, how 
efficient is that process? What does it look like? Does it need 
more resources? Would that help address the delay? Whoever 
feels it would be suitable to answer that.
    Mr. Hallinan. Well, I will start off by saying I believe 
Arlington has gotten strong support and enough resources to 
carry out the mission. Whether adding additional resources is 
going to impact the situation, I really don't believe so. I do 
think it is volume. I think also it is logistics. There is only 
a number of open and first interment sections in Arlington. 
They are all in a certain location within Arlington, almost in 
the corner of Arlington.
    So we need to be very careful. We have gone from 27; our 
goal is to do 30 interments a day to address the backlog. But 
we need to be real careful as we try to reach 30 interments a 
day, that we don't impact any of the other families because of 
the logistics and locations. So today we have 27 interments. If 
we had 30, and the service is going on with another service 
coming down and disrupt that family and impact that service in 
a negative way. So there is a balance. I don't think the 
possibility of an additional caisson, a changing of work 
schedules, is only going to add 1 additional interment, 5 
interments a week, 24 a month. That will start to address the 
backlog. But I guess I question, my staff, when you raise 
people's expectations, interest in Arlington may go up again. 
You may get more calls. The more efficient you become, the 
higher the standard you operate to, you raise people's 
expectations. So I think we are doing everything we can 
locally. I don't really think it is a resource issue at this 
time. I think it is more coordination and logistics.
    Ms. Tsongas. Is eligibility a fairly cut-and-dry 
determination? Is that fairly quickly determined?
    Ms. Condon. Yes, ma'am, it is. And you did mention one of 
the factors by putting up the new Web site. I think one of the 
issues before was it wasn't clear, people didn't know where to 
go to actually find what the criteria was for eligibility. So 
we put out a new administrative guide, which is also on our Web 
site. Just they didn't have the information, and it is pretty 
clear on who is eligible to be buried at Arlington.
    Ms. Tsongas. And in the context of our discussion as to 
whether or not it should be transferred to the VA or remain 
under the Army, do you keep figures on--from what branches of 
the services people are being buried, family members, numbers 
of family members versus those who have served? Do you have 
that broken down into categories?
    Ms. Condon. Yes, ma'am, we do.
    Ms. Tsongas. Thank you. Thank you.
    Thank you and I yield back.
    Mr. Wilson. Thank you very much, Ms. Tsongas.
    We proceed now to Colonel Allen West of Florida.
    Mr. West. Thank you, Mr. Chairman.
    To the visiting chairman, and also ranking members, thank 
you very much.
    And to the panel, thank you for joining us here today.
    And I want to commend you all because the Army that my 
father served in, in World War II; that I served in for 22 
years; and that my nephew is now serving in, we don't run away 
from our missions, and we don't run away from challenges. We 
step up to the plate, and we make the corrective action. So I 
commend you for this and keep pressing on because I don't want 
to see this great tradition to be taken away from my Army, and 
that is an important thing that we have to understand. So, with 
that being said, I would like to ask a little bit about the 
inspection program because as we know, previously, as it said 
in the IG report, there was not an OIP [Organizational 
Inspection Program]. So I would like to get a little bit more 
information as far as the schedule by which we will have these 
OIPs coming up.
    I know, General, you talked about having inspections over 
the next 2 years. Now, will those be IG driven inspections, so 
there will be reports? Or will we have a formal OIP program 
from an external entity? And then, also, Ms. Condon, if you 
could kind of give us an understanding about your internal 
assessment programs that you will have.
    General McCoy. Congressman, I will start with just two 
things, and then I will turn it over to Ms. Condon. The 
inspection I was talking about for the next 2 years required by 
Public Law 111-339 is a DAIG [Department of the Army Inspector 
General] inspection that will result in a written report in 
order to determine that continuing progress is made based on 
the findings that we had in 2010. So that will continue. The 
organizational inspection program is kind of--there are three 
tools available to Ms. Condon. One, obviously, is an internal 
program that she can implement herself. But it also includes 
staff assistance visits. And the staff is very focused right 
now on being at her beck and call to help in many ways. 
Sometimes it is too much help. But the fact is, they are there 
to help, and she is leveraging that very powerfully. And then 
the other part is command inspections, things that we can--that 
the Secretary can ask us to go drill into specifically if he 
wants us to look at things. And then finally her own internal 
processes to get out and about and look at the operations 
inside her program to make sure that they are operating 
properly. Our recommendation to her was that she develop 
internal processes, the external ones are going to continue for 
the foreseeable future.
    Ms. Condon. And, Congressman, we have been able to get to 
the state we are today by having had independent people coming 
in and looking and addressing where issues are, everything from 
contracting to resourcing to how we do our operations. I am 
going to follow, you know, in good Army tradition, the Army 
regulation on the program for inspection. We are going to have 
internal inspections. I am very fortunate, from a cemetery 
operation standpoint, that I have Mr. Hallinan here because he 
was the one who was responsible for all of those inspections 
and that fabulous rating that was given to the VA cemeteries. 
And I welcome any external agency to come in and do an 
inspection.
    I think to date, we are probably the most inspected 
organization in government. But that is okay because it has 
enabled us to fix those issues that need to be corrected for 
our veterans and their loved ones.
    Mr. West. Last question. And that kind of goes along with 
what my colleague was saying. In being a victim of your own 
success and understanding the constraints that you have with 
the capacity there, the increased requests now, are you seeing 
that you have to make any type of changes in the prioritization 
or the guidelines and criteria that you have for interment 
there at Arlington National Cemetery?
    Ms. Condon. Sir, this is a great segue. As you know, 
Secretary McHugh is in the process of establishing and we are 
putting together our first meeting of the Arlington Commission, 
which is an outside body to look at us. And those are the kind 
of issues that we would like to present to that commission. Do 
we need to relook at the eligibility requirements for the 
Cemetery as well as the expansion of the Cemetery? How best 
should we utilize the land that are part of the expansion? So 
that is what we are going to do to address those issues.
    Mr. West. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wilson. Thank you very much, Colonel.
    We now proceed to Chairman Jon Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    And again, Ms. Condon, Mr. Hallinan, General McCoy, thank 
you again for your testimony.
    Ms. Condon, again, thank you for everything we are doing. 
Every time we have a hearing, we are enlightened and encouraged 
by moving forward, but I think the black cloud that hangs over 
us a lot of times is a lot of what I hear a lot of times. 
People see the the forward progress, but they want to talk 
about the bad things, and I want to talk about one right now.
    As you know, we had a briefing--and I know there is an 
ongoing criminal investigation going on--but we had a briefing 
not too long ago in the VA with the Army CIS [Criminal 
Investigation Command, CID] and the missing contract that has 
to do with digitizing the records of the last time when we 
found the 69 boxes. Have they found that contract as of yet, 
the base contract? Not the one with the subcontractor but the 
base contract that we were looking for?
    Ms. Condon. Sir, I will have to take that one for the 
record since it is under investigation. I am not aware if they 
found the contract or not.
    [The information referred to can be found in the Appendix 
on page 77.]
    Mr. Runyan. General, do you have any idea on that?
    General McCoy. No, Congressman. We do not investigate 
criminal matters inside the IG. So that was passed to the 
Criminal Investigation Command, and they have taken that on 
now. We can take that back.
    Mr. Runyan. Thank you.
    And just to comment, Mr. Hallinan: when we are talking 
about maybe transferring, you know, Arlington to the VA, just a 
statement, and I think you would probably agree with me because 
you ran it, are we not duplicating the same process in the VA 
here in the Army?
    Mr. Hallinan. We are providing the same service. I don't 
know if we are duplicating the same process because Arlington 
does things completely differently. I think if the VA in fact 
does have Arlington transferred under their jurisdiction, there 
are going to be some change that they are going to have to deal 
with, some very real challenges. They do not do graveside 
burials. They do not do the honors that are rendered, the 
coordination of military honors units, the 4 million tourists, 
the visitation from heads of state who come to pay their 
respects to America's service men and women. These complexities 
they do not deal with. They deal with their regional, local 
cemeteries and their local communities. Arlington is unique. 
Arlington is special to the American people. It is special to 
the world. It is the world stage. So it is very challenging. My 
eyes were opened and my ears were opened somewhat, Congressman, 
when I went to a meeting of TAPS [Tragedy Assistance Program 
for Survivors]. And these are the Gold Star Mothers and 
Fathers. When we first came on board, we felt it important to 
meet with those most deserved stakeholders, and we were 
discussing the many issues that Arlington was facing, but what 
I got out of it was a number of times, they were quite adamant 
that Arlington remain with the Army and we don't want it to be 
a VA cemetery. And they kind of directed it towards me because 
I had VA written all over me at the time. So I was in the 
defensive mode. But on the most human level, I understood 
exactly what they were telling me.
    Despite everything that happened, the honors that they 
received, they know that the Army had taken their eye off the 
ball, as the Inspector General spoke of, but the Army can fix 
it, the Army has fixed it, and they look for the Army to 
maintain that trust and commitment going into the future. So it 
was right there right in front of us. They were very vocal 
about it.
    Mr. Runyan. Understood. And I respect that totally. But I 
think in a world where there are some very similar aspects for 
it, and there may be room in the future for a collaboration 
there to actually--because we are stewards of the taxpayers' 
money, and that is ultimately what we are about, and there may 
be something to move forward to where we can help the taxpayer 
out a little bit more. So I thank you.
    And, Chairman, I yield back.
    Mr. Wilson. Thank you, Mr. Chairman.
    As we conclude, I have a brief question, but, Ms. Condon, 
you touched on it. It is expansion. What reassurance do you 
have to the American people as to space at the current location 
of Arlington Cemetery, and looking ahead, has Arlington II been 
identified?
    Ms. Condon. Sir, as you know, when Mr. Hallinan and I 
started, we were given data, and the data that we were given 
was that we were going to run out of niche space in the 
Cemetery in the year 2016 and in-ground burial in 2025, which 
caused Mr. Hallinan and I to relook the expansion designs, to 
look at the designs that we inherited from the previous 
administration for the Millennium Project and the expansion to 
the Navy Annex.
    What we have done is the Army's Concept Analysis Agency, 
our research, organizational research guys, have put a model 
together for us which looks at not only the available acreage 
but also looks at the eligibility criteria so we can change the 
factors, because our number one priority is to expand the life 
of Arlington Cemetery for our veterans and their loved ones to 
the maximum extent possible.
    As a matter of fact, last week, Mr. Hallinan and I 
participated in a design charrette for the Millennium Project. 
And it was very interesting because I think Mr. Hallinan had 
much more fun. I had to go back to meetings, but he got to 
spend more time with them to redesign, to put his expertise to 
look at the designs of how we can expand in the future. And I 
don't know if you want to say anything else on that, Pat.
    Mr. Hallinan. As I looked at the Millennium Project, some 
of the expertise that Ms. Condon is referring to is, you know--
if we change the gravesite layout pattern--and this comes from 
my years of experience with the VA, Congressman. We are 
collaborative. I am on the phone with the Under Secretary and 
we are willing to share training and resources. And there are 
more opportunities in the future. And we are going to take them 
up on that and leverage any assistance we can get. But 
something as simple as changing the gravesite layout from a 5-
by-10 gravesite to a 3-by-8 will increase the yield and the 
longevity of Arlington National Cemetery.
    And as the commission that Ms. Condon spoke of, the 
Secretary of the Army has directed looks at eligibility. It may 
impact that decision. Because if we can increase the yield at 
Arlington National Cemetery, we may not have to revisit 
eligibility so those that are eligible now would remain so. You 
would not have to restrict it.
    There is a finite footprint to Arlington National Cemetery, 
as we all know. But based on something as simple as changing 
the gravesite layout may have a significant impact on longevity 
at Arlington National Cemetery from an operational standpoint.
    Mr. Wilson. And thank you. And you do identify finite. Is 
there a second location under consideration at all?
    Ms. Condon. Sir, that is one of the issues that we are 
going to present to the Commission for Arlington, is that we 
all know that there is a finite time when we will run out of 
burial space at Arlington National Cemetery. So that would be 
one of the issues we would tee up to the independent commission 
is, what after Arlington?
    Mr. Wilson. Thank you very much.
    Are there any further questions?
    Hearing none, at this time we adjourn.
    [Whereupon, at 11:16 a.m., the subcommittees were 
adjourned.]


=======================================================================


                            A P P E N D I X

                           September 23, 2011

=======================================================================



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 23, 2011

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 70787.041
    
    .eps[GRAPHIC] [TIFF OMITTED] 70787.042
    
    .eps[GRAPHIC] [TIFF OMITTED] 70787.003
    
    .eps[GRAPHIC] [TIFF OMITTED] 70787.004
    
    [GRAPHIC] [TIFF OMITTED] 70787.001
    
    .eps[GRAPHIC] [TIFF OMITTED] 70787.002
    
    [GRAPHIC] [TIFF OMITTED] 70787.005
    
    [GRAPHIC] [TIFF OMITTED] 70787.006
    
    [GRAPHIC] [TIFF OMITTED] 70787.007
    
    [GRAPHIC] [TIFF OMITTED] 70787.008
    
    [GRAPHIC] [TIFF OMITTED] 70787.009
    
    [GRAPHIC] [TIFF OMITTED] 70787.010
    
    [GRAPHIC] [TIFF OMITTED] 70787.011
    
    [GRAPHIC] [TIFF OMITTED] 70787.012
    
    [GRAPHIC] [TIFF OMITTED] 70787.013
    
    [GRAPHIC] [TIFF OMITTED] 70787.014
    
    [GRAPHIC] [TIFF OMITTED] 70787.015
    
    [GRAPHIC] [TIFF OMITTED] 70787.016
    
    [GRAPHIC] [TIFF OMITTED] 70787.017
    
    [GRAPHIC] [TIFF OMITTED] 70787.018
    
    [GRAPHIC] [TIFF OMITTED] 70787.019
    
    [GRAPHIC] [TIFF OMITTED] 70787.020
    
    [GRAPHIC] [TIFF OMITTED] 70787.021
    
    [GRAPHIC] [TIFF OMITTED] 70787.022
    
    [GRAPHIC] [TIFF OMITTED] 70787.023
    
    [GRAPHIC] [TIFF OMITTED] 70787.024
    
    [GRAPHIC] [TIFF OMITTED] 70787.025
    
    [GRAPHIC] [TIFF OMITTED] 70787.026
    
    [GRAPHIC] [TIFF OMITTED] 70787.027
    
    [GRAPHIC] [TIFF OMITTED] 70787.028
    
    [GRAPHIC] [TIFF OMITTED] 70787.029
    
    [GRAPHIC] [TIFF OMITTED] 70787.030
    
    [GRAPHIC] [TIFF OMITTED] 70787.031
    
    [GRAPHIC] [TIFF OMITTED] 70787.032
    
    [GRAPHIC] [TIFF OMITTED] 70787.033
    
    [GRAPHIC] [TIFF OMITTED] 70787.034
    
    [GRAPHIC] [TIFF OMITTED] 70787.035
    
    [GRAPHIC] [TIFF OMITTED] 70787.036
    
    [GRAPHIC] [TIFF OMITTED] 70787.037
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 23, 2011

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 70787.038
    
    [GRAPHIC] [TIFF OMITTED] 70787.039
    
    [GRAPHIC] [TIFF OMITTED] 70787.040
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 23, 2011

=======================================================================

      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. RUNYAN

    Ms. Condon. Criminal Investigation Command (CID) determined that 
the contract vehicle described by CID in the briefing to Congressman 
Runyan and the Veterans Affairs Committee has not been found. The 
contracting relationship between Arlington National Cemetery (ANC) and 
the company Office Solutions was documented in 2004 (awarded 26 MAR 
2004). The original (basic) contract file was required by Federal 
Acquisition Regulations (FAR) to be retained for a period of 3 years 
following fiscal closeout. The basic contract file and documentation is 
presumed destroyed IAW [in accordance with] the FAR, due to the 
retention period expiration. None of the basic contract files have been 
discovered by CID and are presumed to have been destroyed. What CID was 
able to locate was the documents related to Office Solutions that were 
retrieved from the Electronic Document Access (EDA) system maintained 
by Defense Information Systems Agency (DISA), Ogden, UT. We have five 
Standard Form 1449, Solicitation/Contract/Order for Commercial Items 
and three Standard Form 30, Amendment of Solicitation/Modification of 
Contract, consisting of 139 pages. A review of the documents from the 
EDA system did not reveal anything of evidentiary value. As stated 
previously, we do not have, nor have we been able to locate, the base 
contract. [See page 21.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 23, 2011

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. WEST

    Mr. West. With the significant development of tracking systems in 
the past few years, commercial and government organizations are now 
using RTLS (``Real-Time Location Systems'') to track their high-value 
assets in real time. Indeed, the Department of Defense is already 
applying such technologies to a variety of high priority items. For 
example, the U.S. Army Depot at Tobyhanna, Pennsylvania is using RTLS 
technology to provide a real-time location capability that enables the 
effective tracking and tracing of weapons system parts. What 
technologies like this are you evaluating and/or benchmarking against 
within DOD so that Congress and the public can be assured that there 
will be a stewardship system in place at Arlington National Cemetery 
that will accurately account for the remains of our Nation's veterans 
from theatre to the cemetery and, within Arlington, to burial?
    Ms. Condon. Arlington National Cemetery is diligently working to 
meet the legislative requirements set forth by Public Law 111-339 by 
conducting a full accounting of Arlington National Cemetery Gravesites.
    In August 2010, the ANCP Executive Director formally requested 
support from the Army's Assistant Chief of Staff for Installation 
Management (ACSIM) to field Arlington National Cemetery a world class 
geospatial information system (GIS). This system once fielded will 
provide Arlington Cemetery a ``Google-maps like'' ability to digitally 
track and audit the management and assignment of gravesites for our 
nations' veterans. This system is on track to be fielded in March 2012.
    The Department of Defense (DOD) uses the Defense Casualty 
Information Processing System (DCIPS) to track individual remains as 
they transit from theatre to their final destination.
    Arlington National Cemetery has investigated technologies that 
could provide Radio Frequency Identification Technologies as well as 
looked at how mobile applications and digital photographs could 
permanently enhance the burial records of Arlington National Cemetery 
to assure the public of stewardship of burial remains. In addition to 
Arlington's internal research, through partnership with the VA we 
understand the Department of Veterans affairs is investigating asset 
management systems as part of their Memorial Affairs Redesign (MAR) 
project and if such technology could enhance the stewardship provided 
to the remains of our nation's veterans from theater. This research is 
part of their requirement development phase as they undergo a 
replacement for their Current Burial Operations Support System (BOSS).

                                  <all>

</pre></body></html>
